                                                                                             --




                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM

Case Number: A03020008
                                                                    1        Page 1 of 1



    The subject's1 University notified u s it had concluded a n Inquiry and was
    proceeding to a n Investigation related to an allegation of fabrication. Specifically,
    the subject, a graduate student, had given her advisor fabricated data, which the
    advisor incorporated into a n NSF proposal.2 Our Report of Investigation was
    provided to NSF's Deputy Director, who made a finding of research misconduct and
    debarred the subject for 3 years. This Memorandum, our Report of Investigation,
    and the NSF Deputy Director's finding constitute the closeout for this case.
    Accordingly, this case is closed.
                                 NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUlY DIRECTOR




       Re: Notice of Proposed Debarment




This letter serves as formal notice that the National Science Foundation ('WSF") is proposing to
debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three
years. During your period of debarment, you will be precluded from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and
activities. See 45 CFR Part 620, Subparts A, B and I. In addition, you will b e prohibited from
receiving any Federal contracts or approved subcontracts under the Federal Acquisition
Regulations ("FAR"). See 45 CFR 620.125. Lastly, during your debarment period, you will be
barred fiom having supervisory responsibility, primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government. See 45 CFR 620.115.


Reason for Proposed Debarment
Your proposed debarment is based upon a referral from NSF's Office of Inspector General
("OIG). In 2003,     n                                                  submitted a proposal to
IVSF entitled,'                                               As documented in the attached
Investigative Report           by ~ F ' Office
                                           S     of hspector General ("OIG), you fabricated and
falsified data that was incorporated into this proposal.
                                                                                           Page 2


Regulatory Basis for Debarment
Pursuant to 45 CFR 620.800, debarment may be imposed for:
   (b) Violation of the terms of a public agreement or transaction so serous as to affect the
       integrity of an agency program, such as -
           (1) A willful failure to perform in accordance with the terms of one or more public
               agreements or transactions; or


           (3) A willful violation of a statutory or regulatory provision or requirement
               applicable to a public agreement or transaction


In any debarment action, the government must establish the cause for debarment by a .
preponderance of the evidence. 45 CFR 620.850. In this case, you knowingly falsified and
fabricated data in connection with research funded, in part, by the Foundation. Thus, your
actions support a cause for debarment under 45 CFR 620.8000>).


Length of Debarment
Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 45 CFR 620.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 45 CFR
620.865. Having considered the seriousness of your actions, a s well as the relevant aggravating
and mitigating factors set forth in 5 CFR 620.860, we are proposing debarment for a period of
three years.


Procedures Governing Proposed Debarment
The provisions of 45 CFR Sections 620.800 through 620.855 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 45 CFR 620.860. Comments submitted within the 30-day period will receive
full consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.
                                                                                      Page 3


Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                  Sincerely,




                                                  Deputy Director

Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
National Science Foundation
 Office o f Inspector General




         Confidential
    Report of Investigation
   Case Number A03020008
                                           Summary
     The Office of Inspector General (OIG) has concluded the subject (a graduate
student) fabricated data and lied about doing so during the University's
investigation. As a result of its investigation, the subject's university found the
subject engaged in misconduct by fabricating data and misled her advisor and the
Investigation Committee in evading responsibility for the fabrication. I t terminated
the subject's student status and barred her from future enrollment a t the
University. We recommend the National Science Foundation (NSF) send a letter of
reprimand to the subject informing her she has committed research misconduct and
debar her for 3 years.



                                  The University's Actions


      On 18 February 2003, the Vice Chancellor for Research and designated
Research Integrity Officer1 for the University2 wrote to us3 regarding the initiation
of an Investigation based on the results of an Inquiry into a n allegation of
fabrication/falsification of data by a graduate student (the subjecd.4 Specifically,
the subject was alleged to have falsified or fabricated data she provided to her
advisor5 for a manuscripts and proposals to NSF7 and NIH.8 Because the subject
was a student, the Dean of Students,g in accordance with the University's Student
Code of Conduct, conducted the Inquiry. A memorandum, written by the advisor
described her realization that the data provided by the subject was suspicious and
the subject's dubious claim of a heretofore-unknown person who purportedly altered
the data.10 Based primarily on this memorandum, the University proceeded with
a n Investigation and asked NSF to defer independent inquiry.
                                         Investigation
     The University appointed a Student Conduct Committee (the Committee) to
conduct the investigation. The Committee had three members who held a hearing
to examine evidence and hear testimony from the University and the subject. The
subject's advisor testified for the University, and the subject testified on her own
                                                                          ,


   1   (redacted).
   2   (redacted).
   3

   4                          was a pre-doctoral graduate student in Social Psychology.
   5  (redacted).
    6 (redacted) was submitted to Psychological Science.
    7 (redacted). The proposal is Appendix (B).
    8 (redacted).
    9 (redacted).
    10 The advisor's memorandum, which was enclosed with the Vice Chancellor's letter, is included
in Appendix (A).
behalf. After the hearing, the Committee prepared its Confidential Memorandum
(CM) describing its findings and conclusions.~~
     The CM described the allegation as fabrication in "eight or nine studies12
conducted by [the subject] under the supervision of [her advisor] over the span of
two years."l3 Three studies were the basis for a manuscript submitted for
publication; eight studies were included in the NSF proposal.14 According to the
advisor, one of the manuscript's reviewer's suggestions was to put all the statistical
results in a single table:
          Especially after placing the statistical results in a single table, and
          observing the data patterns, [the advisor] realized that it is highly
          likely that the data had been manufactured, and that the fraud
          committed will be easily detected by outside researchers who attempt
          to verify or reproduce the results obtained from these studies.15
The advisor apparently convinced the subject such remarkable agreement between
different data sets would draw scrutiny, and such scrutiny would uncover any
problems with the data, if any existed. The subject's initial response was to suggest
they not put all the data in a single table. The advisor viewed the subject's response
a s evasive, and it further convinced her of the likelihood the data were fabricated.
The subject suggested the advisor withdraw the manuscript because the data might
not replicate when pressed by the advisor for a resolution.16
     Instead of defending her data or producing data that could be independently
verified, the subject responded to her advisor's questions about the validity of the
data by implicating two undergraduate students in the falsification. The advisor
was not convinced and concluded "no one, other than [the subject], had the level of
knowledge and involvement across eight studies that would have facilitated the
commission of fraud of this extent and magnitude."l7 Thus, after failing to convince
the advisor a n undergraduate fabricated her data, the subject then claimed a
heretofore-unknown individual (the colleague18) was responsible for the data
fabrication. The subject said shortly after she began working with the advisor, the
colleague contacted her, asking to participate in her research. The colleague had no
training or experience in entering, cleaning,lg or analyzing data, but the subject

    11 The 21 Feb 03 CM along with a 13 Mar 0 3 cover letter are Appendix (C).
    12 As will be explained later in this ROI, the University was unable to determine the extent of
the fabrication.
    13 CM, p. 2; Appendix (C).
    14 Appendix (B).
    15 CM, p. 4;Appendix (C); see also advisor's memorandum, Appendix (A), p. 3.
    16 Curiously, when the advisor learned of the possibility that the subject's data were fabricated,
she withdrew the manuscript and the NIH proposal, but refused to withdraw the NSF proposal, even
after the University concluded the data upon which the proposal was based were fabricated and
made a finding against the subject. The proposal was subsequently declined.
    l7 CM, p. 4; Appendix (C); see also memo, Appendix (A), p. 3.
    18
    19   The term 'cleaning' is used to mean checking the data for obvious errors.
apparently agreed to hire and train her, even though she provided the colleague
neither pay nor credit for her efforts.20
     As described in the CM,21 the subject gave conflicting testimony about her
working relationship with the colleague. Despite purportedly working together for
several years, the subject claimed only to be able to correspond with the colleague
via email. However, the colleague apparently responded rapidly to the subject's
email requests. The subject provided her advisor a copy of a n email she said she
sent the colleague asking if the colleague had fabricated any of the data.22 Three
minutes afterward, the colleague evidently emailed the subject back admitting she
had, stating she thought it would be helpful to the subject for her to do so.23 In
further emails, the colleague admitted to the subject how she fabricated the data,
including having friends fill out s ~ r v e y s . ~ 4
      After the admission of data fabrication, the advisor emailed the subject asking
for the colleague's email address, saying she wanted to speak with her.25 The
subject supposedly communicated this to the colleague. Sixteen minutes after the
colleague's alleged response to the subject, the subject informed her advisor she had
heard from the colleague, and the colleague professed embarrassment for her
actions and indicated she was changing her email address and would not write
again.26 In that same email, the subject concluded it did not really matter she could
not contact the colleague anymore, and she asked the advisor about beginning her
thesis work.27, 28 AS the Committee observed, "[iln about fifteen minutes, [the
subject] was able to conclude that the only individual who could possibly vindicate
the integrity of her work or absolve her from culpability is no longer available."29
These correspondences and the abrupt termination of communication from the
colleague raised considerable doubts about the subject's story. The advisor reported
to the subject:

   z0 The colleague was not acknowledged on any papers or in the manuscript with the fabricated
data. The lack of acknowledgment for contributions to the research is inconsistent with other papers
published by the subject and advisor. For example, (redacted), acknowledged research assistants.
The lack of acknowledgment in the submitted manuscript indicates the work was purportedly
conducted by the subject.
    21 See CM, pp. 5-8; Appendix (C).
    22 Appendix (Dl contains email correspondence between the subject and the colleague, and
between the subject and the advisor. The subject's sent email to the colleague a t 13:46, 16 Oct 2002.
See Appendix (D), p. 1.
    23 The colleague's response to the subject was emailed 13149, 16 Oct 2002-3        minutes after the
subject's email was sent. See Appendix (D), p. 1.
    Z4 Ibid, p. 2.
    25 The advisor's 9:12, 17 Oct 02 email to the subject; ibid. p. 3.
    26 The colleague's email to the subject was a t 10:23, 17 Oct 2002; ibid. p. 4.
    27 The subject's email to her advisor was a t 10:39, 17 Oct 2002; ibid. p. 5.
    28 I t is also telling that rather than provide the colleague's to the advisor as requested, the
subject offered to fax her the email rather than forward it to her, which not only would have been
easier, but places the subject's story a t risk if the advisor discovered there was no such email
address.
    29 CM, p. 6; Appendix (C).
         I have to say t h a t the idea t h a t a n undergrad from a n unknown
         university came to your house, entered d a t a which she faked for two
         years, and then vanished without a trace is meeting with some
         skepticism.30
The Committee felt likewise:
         I t struck the Committee a s highly implausible t h a t a n undergraduate
         would volunteer to manufacture the very d a t a t h a t is crucial to [the
         subject's] thesis a n d career, gain the confidence to do so with impunity,
         promptly confess to the fraud once confronted by electronic mail, and
         then vanish, not to be found by anyone.31
The Committee concluded, "it is more likely t h a n not t h a t [the colleague] was a
convenient scapegoat invented by [the subject] i n order to escape responsibility for
h e r malfeasance."32
       At t h e hearing, the Committee focused on the subject's testimony, which i t
found lacking i n credibility. There was no significant analysis or discussion of the
d a t a itself. It seemed to be accepted they were fabricated, a s evidenced by the
colleague's admission. Therefore, the Committee's assessment of the credibility of
t h e subject's story was a primary basis for reaching its conclusions. The Committee
noted:
         Much of this case t u r n s on the believability of [the subject's] proffered
         explanations and claims, and on t h e Committee's assessment of [the
         subject's] credibility and honesty. . . . [Tlhe Committee found the
         [subject] to lack in credibility, a n d agreed t h a t [the subject] is being
         dishonest about her role in fabricating d a t a a n d then attempting to
         evade responsibility by concealing a n d misrepresenting the evidence.33
        The Committee had to
         decide whether [the subject] h a s been beset by extremely unfortunate
         circumstances t h a t have entirely compromised her scholarly research
         or if [the subject] herself is the maker of her misfortune by fabricating
         d a t a and then acting to hide t h e evidence of her fraud. Upon carefully
         examining t h e course of [the subject's] conduct in response to t h e
         charges made, and her demeanor and statements at the Hearing, the
         Committee unanimously agreed t h a t [the subject] is being dishonest,
         a n d t h a t i t is more likely than not t h a t she herself fabricated the data,
         and then acted to prevent the discovery of the fraud.




   30   CM, p. 8; Appendix (C) quoting from the advisor's email, Appendix (D), p. 5.
   31   CM, p. 8; Appendix (C).
   32   Ibid., p. 9.
   33   Ibid., p. 3.
         [The Committee] concluded the University has proved by a
         preponderance of the evidence that [the subject] has violated [the
         Student] Code by engaging in academic misconduct by fabricating data
         and knowingly furnishing false information. . . . [C]onsidering the
         extent, duration, and magnitude of fraud involved in this case, and
         [the subject's] lack of honesty throughout the process and systematic
         attempt to conceal the fraud and evade responsibility, the Committee
         unanimously recommends that [the subject] be dismissed from the
         University, and that her status a s a graduate student, and doctoral
         candidate a t [the University] be terminated.34
                                       Subject's statement
     The subject provided a statement and timeline.35 Her statement describes her
supposed collaboration with the colleague. As noted in the University report, the
subject's description of her working relationship with the colleague in her written
statement conflicted her oral testimony before the Committee.
                                          Ad ju dica tion
     The Interim Vice Chancellor, Student Affairs36 concluded the subject fabricated
the data sets and upheld the Committee's recommendation to dismiss the subject
from the University. The University informed the subject of its findings and action.
The subject declined to comment.



                                        OIG's Assessment
                                           Jurisdiction
     After receiving the allegation, we determined that even though the subject did
not directly submit any fabricated data to NSF, the appearance of the allegedly
fabricated data in the NSF proposal gave us sufficient jurisdiction to warrant our
investigation. After we received the University's Investigation report, we learned
the Office of Research Integrity37 (OR11 was also involved; thus, we worked with
OR1 in the review of the University's investigation of this allegation. To avoid
duplicating the University's efforts, OR1 handled the pos t-Investigation
correspondence with the University.




   34   CM, p. 10; Appendix (C).
   35   Appendix (E).
   36
     37 The Office of Research Integrity, Department of Health a n d Human Services, oversees
institutional investigations of scientific misconduct involving research grant applications submitted
to t h e National Institutes of Health.
                                              Analysis
     As already noted above, given the Committee's acceptance of the admission of
fabrication, its focus was on who fabricated the data. There was no substantive
analysis of the data itself to show they were fabricated. Unfortunately, the
advisor's laboratory practices38 and the University's failure to sequester evidence39
have resulted in nearly all allegedly falsified and/or fabricated data either being
destroyed or unavailable.40 As the advisor noted, it was the accumulation of two
years worth of data in eight studies that each seemed to agree with the others with
a n unusually high correlation t h a t led to her conclusion the data were fabricated.41
     We agree with the Committee the subject's story lacks any credibility. The
idea the subject outsourced crucial parts of her thesis research to a n undergraduate,
whom she had never disclosed to her advisor or anyone in the group, is not
deserving of acceptance. Furthermore, it is difficult to believe the subject would


      38 The advisor's general approach in testing her theories was to assign undergraduate students a
survey to conduct. The students would administer the questionnaires, collect the data, and provide
it to the subject for cleaning and statistical analysis. After the subject completed her statistical
analysis, the original data (questionnaires) were returned to the students. Adding to the loss of
evidence, when the advisor checked the subject's statistical analysis and found 'discrepancies', she
would 'correct' them and discard the 'incorrect' ones.
      39 The University handled this a s a student conduct matter and a formal hearing. Perhaps
because of this, the University did not actively sequester the subject's data. At some point, someone
noticed the absence of data upon which the allegation is based and asked the subject about i t during
t h e hearing, where she "testified that she did not supply the database for her studies because the
University has never asked for it, and t h a t if the University had asked for it, [she] would have
supplied it." "The Committee found. [the subject's] claims all too convenient, and pronouncedly
evasive," and it appeared to reason t h a t even if true, the University should not have had to ask for
the subject's data because "[the subject] has been accused of very serious charges, and the
Committee would have expected [the subject] to be eager to supply the data that could possibly
vindicate her work." However, the CM noted that a t different times, the subject apparently made
contradictory statements about her giving the data to her advisor, and ultimately concluded the
subject "has been unable or unwilling to product the database in question." [All quotations in this
footnote are from CM, pp. 9-10; Appendix (C).]
      40 A small amount of evidence remains in the form of facsimiles and data from one study.
      41 AS noted in the CM and in this ROI, it was the subject's tabular summary of 3 data sets, along
with the advisor's familiarity with 2-years worth of data, that led her to question the validity of the
subject's data. The subject never actually presented her raw data to her advisor. There is little
evidence of fabrication to be observed from any of the data in the NSF and NIH proposals because
only statistical results of the analyses were presented in the proposals. There was only one set of
'raw' data the subject produced, and t h a t was after a 10+ day delay following the advisor's request
for it; however, it does not provide any insight regarding the allegations because it consists of only
individual surveys. There is no evidence in those data which directly indicate fabrication. However,
one indicator the statistical data in the manuscript, NSF and NIH proposals were not legitimate is
t h a t the questionnaires lack questions for which data is provided. For example, in both the NSF and
 NIH proposals (p. 6 and p. 21, respectively), there is a statement: "All patients in the sample were on
 a n insulin regimen, and 38% of the sample had been hospitalized previously due to their condition."
As can be seen from a typical survey (Appendix (F)), there is no question about hospitalization.
 Another indicator is that the necessary documentation (e.g., human subjects' approval, IRB
 approval) does not exist.
calmly accept the colleague's admission that she had been fabricating the data she
provided to the subject and, with two years of her thesis research on the line, wait
nearly one and one half hours before asking the colleague which data was fabricated
and the extent and nature of the fabrication, especially given the rapid email
exchanges that took place between subject and colleague. I t is also telling that in
the alleged email exchanges between subject and colleague, there is no email from
the subject to the colleague asking her to communicate with the advisor; the
colleague apparently, and conveniently, decided to disappear. I t seems clear the
subject reacted to the advisor's request to communicate with the colleague by
having the colleague become unavailable. We agree with the Committee's
incredulousness that, having learned the colleague was no longer available for
questions, the subject, without trying to dissuade the colleague, took only fifteen
minutes to inform her advisor t h a t the colleague's disappearance "doesn't really
mattern42 and then asked the advisor about finishing her thesis.
      We conclude, given the absence of the allegedly fabricated data, the
Committee's Investigation was sufficient in addressing the allegation, its report was
complete and accurate, and, although the University did not attempt to sequester
the data, it otherwise followed reasonable procedures; therefore, we accept its report
in lieu of doing our own investigation. A finding of misconduct requires that (1)
there be a significant departure from accepted practices of the relevant research
community, and (2) the research misconduct be committed intentionally, or
knowingly, or recklessly, and (3) the allegation be proven by a preponderance of the
evidence.43


     The subject allegedly fabricated data over the course of two years and provided
those fabricated data sets to her advisor for inclusion i n a manuscript, a n NIH
proposal, and a n NSF proposal.44 The advisor was suspicious of the incredible
correlation the subject's data showed,45 and when initially questioned about the
data's integrity, the subject agreed the data would not withstand scrutiny and
recommended the withdrawal of the manuscript. When questioned further, the
subject attempted to shift blame to a n undergraduate in her group and, ultimately,
to a fictitious colleague. The colleague admitted the data were fabricated in a n
email to the subject. The subject could (or would) not produce any data to support
the validity of her data, showing a lack of responsibility in accepting the obligation

      4 2 ~ ~ ~ e n(D),
                      d i xp. 5.
    43    45 CFR 5 689(2)(c).
      4 4 The exact extent of the fabrication is unknown; the subject acknowledged only the data in the
seven studies supposedly handled by the colleague were fabricated, but in the advisor's judgment,
d a t a in all nine studies is likely unreliable.
       45 I n a discussion with OR1 after the University investigation, the advisor supported her
allegation the data were fabricated based on her assessment t h a t (a) the degrees of freedom were
wrong, a computation t h a t would have been impossible given the software the advisor's group used
for statistical analysis; and (b) the pattern of "F values" and degree of statistical significance
correlated over all studies to a n extent the advisor described a s unheard of.
inherent in practicing science to provide her data for independent verification. She
also could not provide the identity of the colleague to whom she had entrusted the
original data. Therefore, we conclude that the preponderance of the evidence
supports the conclusion the subject created fake data and then invented the
colleague as a scapegoat to avoid taking responsibility for her actions.


     The Vice Chancellor's cover letter noted the Committee found the subject had
intentionally fabricated data and knowingly furnished false information to avoid
responsibility. We agree with this assessment. The emails from the alleged
colleague indicate she created the fake data to help the subject; thus, we conclude
the subject intentionally created fake data to give the appearance of good research
results. The emails show a pattern of fabrication that occurred with forethought
because friends were asked to make up results on multiple occasions.46
     Thus, we conclude a preponderance of evidence supports the conclusion that
the subject, through the colleague, admitted to the fabrication, which took place
over the course of 2 years, and which she committed intentionally. Fabrication of
this magnitude is considered a significant departure from accepted practices, and
therefore we conclude the subject committed research misconduct.


                               OIG's Recommended Disposition
     I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; the degree to which the misconduct was knowing, intentional,
or reckless; whether it was a n isolated event or part of a pattern; whether it had
significant impact on the research record; and other relevant circumstances.47
     I n our view, which the University shared, fabrication of data is a serious
breach of the standards of research. I n this case, the fabrication took place over a 2-
year period, consisted of nearly the entirety of the subject's research, and
represented a pattern of egregious behavior. The subject knowingly provided data
to the advisor for inclusion in a manuscript to be published, and proposals to NIH
and NSF. In addition to the fabrication itself, the subject evaded responsibility by
inventing a fictitious colleague and told numerous lies to the advisor and
Committee to try to support this fictitious colleague. These fabrications and
evasions of responsibility led to the Committee's unanimous recommendation for
the University to dismiss the subject-the strongest possible action it could
recommend.



    46 See p. 6 of the University's Confidential Memo found in Appendix (C); also see subject's email
found in Appendix (Dl, p. 2.
    47 45 CFR § 689.3(b).




                                                                                                  P. 8
     We note the subject has not been cooperative with the Federal investigation.
She did not respond to our written request for information and did not return our
telephone call.
     We conclude the subject's fabrication warrants a finding of research
misconduct. The University's action is appropriate, but does not protect the Federal
government's interests. The subject's fabrication of data, blaming others, and
creating a colleague to take the blame indicates she lacks present responsibility to
conduct research for the government. Accordingly, we recommend NSF debar the
subject for 3 years from final resolution of this case.48 These recommendations are
consistent with the subject's acts as well as the University's disposition. The
recommended debarment is longer than in some other fabrication cases because of
the duration, scope, and pattern of fabrication and the subject's lack of present
responsibility.




   48   This is a Group I11 action, 45 CFR   5 689.3(a)(3)(iii).
